                     United States Department of the Interior

                                      Office of Inspector General
                                           Western Region
                                               Federal Building
                                        2800 Cottage Way, Suite E-2712
                                          Sacramento, California 95825



                                                                   Report No. P-VS-BIA-0008-2006
                                                                                   August 3, 2006

Memorandum

To:           Assistant Secretary for Policy, Management and Budget
                (Attention: Associate Director for Finance, Policy and Operations)
              Assistant Secretary for Indian Affairs

From:         Michael P. Colombo
              Regional Audit Manager

Subject:      Verification Review of Four Recommendations Referred for Implementation
              Tracking from our September 2003 Audit Report Bureau of Indian Affairs School
              Construction Planning and Design Process (No. 2003-I-0070)

         The Office of Inspector General (OIG) has completed a verification review of four
recommendations presented in the subject report. The objective of the review was to determine
whether the recommendations were implemented as reported to the Office of Financial
Management, Office of Policy, Management and Budget.

Background

         Our September 2003 audit report Bureau of Indian Affairs School Construction
Planning and Design Process (No. 2003-I-0070) made six recommendations to the Bureau of
Indian Affairs (BIA) to correct deficiencies in its student enrollment projection process. Based
on BIA’s response to the draft report and subsequent documentation provided in its March 22,
2004 memorandum, we considered Recommendations 5 and 6 resolved and implemented. We
considered Recommendations 1 through 4 as resolved but not implemented and referred them to
the Assistant Secretary for Policy, Management and Budget for tracking of implementation.

          The Focus Leader for Management Control and Audit Follow-up informed our office in
memorandums dated August 2, 2004, and October 4, 2004, that the actions taken by BIA were
sufficient to consider Recommendations 1 through 4 implemented.

Scope and Methodology

        The scope of this review was limited to determining whether BIA took action to
implement the recommendations. To accomplish our objective, we reviewed the supporting
documentation provided by BIA officials relating to Recommendations 1 through 4 in the report.
We did not perform any site visits or conduct any detailed audit fieldwork to determine whether
the underlying deficiencies that were initially identified have been corrected. As a result, this
review was not conducted in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States.

                                      Results of Review
          Our current review found that BIA implemented Recommendations 1 through 4. The
status of the recommendations is summarized in the Appendix.

Recommendation 1: “Where legally and economically feasible, recalculate the existing
enrollment projections for all schools in the planning and design phase using the October
2002 interim guidelines and incorporate the results into project designs.”

          In its May 27, 2004 memorandum to the OIG, BIA stated that it had taken actions to
implement Recommendation 1. To address this recommendation, BIA recalculated enrollment
projections for schools it deemed to be economically feasible and incorporated the results into
project designs. The recalculations resulted in decreased projections for seven schools. Actions
taken by BIA are sufficient for us to consider Recommendation 1 implemented.

Recommendations 2, 3, and 4:

   ¾ Recommendation 2: “Assign responsibility to OIEP [Office of Indian Education
     Programs] or OFMC [Office of Facilities Maintenance and Construction] or
     another appropriate office for the formal approval of all enrollment projections.”

   ¾ Recommendation 3: “Implement procedures requiring BIA personnel to obtain and
     verify the data and methodology that is used in enrollment projection calculations
     and to document the results of the review.”

   ¾ Recommendation 4: “Require justification, verified supporting documentation, and
     approval by the appropriate official for any exception to the enrollment projection
     guidelines.”

         In its October 4, 2004 memorandum to the Focus Leader for Management Control and
Audit Follow-up, BIA stated that it had taken actions to implement Recommendations 2, 3, and
4. Our review of BIA’s revised enrollment projection policy showed that BIA (1) assigned
responsibility for approving enrollment projections and exceptions to the Director of OIEP and
(2) implemented procedures to ensure schools use a consistent methodology and properly
documented enrollment projections. For example, the revised policy requires the use of a
regression analysis (also called a “sum of the least squared analysis”) to project enrollment,
using the past 10 years of certified Indian School Equalization Program counts for each school.
Actions taken by BIA are sufficient for us to consider Recommendations 2, 3, and 4
implemented.




                                                2
Conclusion

         During an exit conference on May 31, 2006, we informed a BIA official that we were
reporting Recommendations 1 through 4 in the subject audit report as resolved and implemented.
Because we consider these recommendations closed, no response to this report is necessary.

         If you have any questions about this report, please contact me at (916) 978-5653.

cc: Focus Leader for Management Control and Audit Follow-up, Office of Financial
       Management, Office of the Assistant Secretary for Policy, Management and Budget
    Audit Liaison Officer, Department of the Interior
    Audit Liaison Officer, Assistant Secretary for Indian Affairs and Bureau of Indian
       Affairs Director, Office of Audit and Evaluation, Bureau of Indian Affairs




                                               3
                                                          Appendix


STATUS OF PRIOR AUDIT REPORT RECOMMENDATIONS

   Recommendation   Status            Action Required

         1          Resolved          No further action
                    and Implemented   required.


         2          Resolved          No further action
                    and Implemented   required.


         3          Resolved          No further action
                    and Implemented   required.


         4          Resolved          No further action
                    and Implemented   required.




                             4
